In November 2010, Amtrak Inspector General (IG) Ted Alves asked the U.S.
Postal Service Office of Inspector General (OIG) to conduct an independent
investigation into whether Amtrak employees improperly searched Amtrak
OIG e-mail. That investigation has been completed. The following sets forth the
rationale for the request, along with a summary of the Postal Service OIG
findings.

Rationale

   On November 18, 2010, the Postal Service OIG Special Inquiries Division
   received a request from the Amtrak OIG to investigate allegations that Amtrak
   executives and employees improperly searched Amtrak OIG e-mail. Amtrak
   IG Ted Alves advised that congressional staff had received confidential
   information that Amtrak executives improperly searched OIG e-mail, including
   e-mail from whistleblowers.

Summary

   Until 2010, Amtrak and Amtrak’s OIG utilized a shared global e-mail system
   with the same domain name: amtrak.com. This shared system was designed
   with input from former Amtrak IG Fred E. Weiderhold, Jr. Because all e-mail
   resided on the same server using the same domain name, no separation
   existed between Amtrak corporate e-mail and Amtrak OIG e-mail. As a result,
   Amtrak OIG e-mail was open and accessible during global e-mail searches by
   Amtrak Law Department staff using a discovery search tool called
   EmailXtender.

   Agents determined that Weiderhold at least twice asked Amtrak’s Law
   Department to conduct e-mail searches that included OIG e-mail. The
   investigation examined these two searches, as well as other instances in
   which Amtrak personnel conducted searches resulting in the capture of OIG
   e-mail. Agents did not identify any evidence of inappropriate targeting of OIG
   e-mail or deliberate misconduct by Amtrak employees or contractors who
   conducted the searches requested by Weiderhold, or any other e-mail
   searches. Further, all Amtrak employees and contractors who conducted e-
   mail searches reported believing that the searches were conducted within the
   scope of their work.

   In November 2010, as a solution to this flawed system, Amtrak President and
   Chief Executive Officer Joseph Boardman and IG Ted Alves signed an
   agreement establishing protocols for conducting future e-mail searches. In
   addition to this agreement, a new domain name was established for Amtrak
   OIG, amtrakoig.gov, to prevent OIG e-mail from being included in future
   Amtrak e-mail searches.
